       OIG
       OFFICE OF INSPECTOR GENERAL

                                   Catalyst for Improving the Environment



Memorandum Report




        Improving Nationwide
        Effectiveness of Pump-and-Treat
        Remedies Requires Sustained
        and Focused Action to Realize
        Benefits

        Report No. 2003-P-000006


        Date: March 27, 2003
      Report Contributors:                       Kevin Ross
                                                 Chad Kincheloe
                                                 Ed Baldinger
                                                 Leah Nikaidoh




Abbreviations

      CERCLA       Comprehensive Environmental Response, Compensation, and Liability
                   Act
      DoD          Department of Defense
      EPA          Environmental Protection Agency
      MtBe         Methyl Tertiary-Butyl Ether
      NAPL         Nonaqueous Phase Liquid
      OSWER        Office of Solid Waste and Emergency Response
      RSE          Remediation System Evaluation
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                    OFFICE OF
                                                                               INSPECTOR GENERAL




                                        March 27, 2003

MEMORANDUM

SUBJECT:            Memorandum Report:
                    Improving Nationwide Effectiveness of Pump-and-Treat Remedies Requires
                    Sustained and Focused Action to Realize Benefits
                    Assignment No. 2002-0000326


FROM:               Carolyn Copper
                    Director for Hazardous Waste Issues
                    Office of Program Evaluation

TO:                 Marianne Lamont Horinko
                    Assistant Administrator
                    Office of Solid Waste and Emergency Response

This memorandum communicates our final findings on key issues we observed during our
evaluation of the Nationwide Superfund-Financed Pump and Treat Optimization Project
conducted by the Environmental Protection Agency’s (EPA’s) Office of Solid Waste and
Emergency Response (OSWER). Our evaluation of this project occurred while OSWER and its
contractors were completing or implementing key phases of the project. Based on progress we
observed during our evaluation, we are not making specific recommendations in this
memorandum report. Therefore, no response is required. However, we collected and analyzed
information unique to this project and have observations we believe will facilitate achieving
environmental and fiscal benefits. This memorandum is our final product under Inspector
General assignment number 2002-0000326.

Results in Brief
As part of its fiscal 2000-2001 Superfund Reforms Strategy, OSWER committed to optimizing
the performance of Superfund-financed groundwater pump-and-treat systems. Generally, the
Nationwide Optimization Project has produced valuable information on the cost and
performance of these pump-and-treat systems. Among other things, this project has identified at
least 241 recommendations for improvements to about 17 of the 20 Superfund-financed pump-
and-treat systems evaluated. It has also identified important ways that existing Superfund-
financed systems, as well as non-Superfund-financed systems, can be managed more effectively.
Information we obtained from EPA Regions and States that are or will be managing some of the
evaluated systems generally indicates that the optimization project was valuable, useful, and
identified opportunities to save Superfund dollars. Our results indicate that about one half of all
recommendations made during the optimization project were fully implemented or are in
progress. Regions disagreed with less than 10 percent of the recommendations, while others
have been deferred (we could not determine the precise impact of the deferred
recommendations). Overall, we believe that important and useful progress has been made in
implementing recommendations.

However, we believe that more focused, specific, and organized action and plans are needed by
OSWER to accurately track, analyze, and report on the environmental and fiscal benefits
associated with implementing recommendations from the optimization project. Without this,
there is risk that a beneficial opportunity to acquire information on how effective the
optimization project is for producing environmental or cost savings results will be lost. In the
long term, it will be difficult to determine the environmental and cost benefits of optimization
projects such as this if accurate and meaningful information on the results they produce has not
been collected or analyzed. Among the actions needed are setting priorities for which sites or
recommendations are most critical to track, establishing a time line for tracking actions, and
establishing credible metrics to measure environmental and cost benefit outcomes associated
with implementing optimization project recommendations. These actions should also be
incorporated in the work plans of future optimization projects EPA will implement or has
recently implemented.

Purpose of Review

Although we had initially identified a need to examine the effectiveness of Superfund pump-and-
treat groundwater cleanup remedies, we discovered that OSWER had already initiated a
nationwide review of the costs and performance of Superfund-financed pump-and-treat systems
with the goal of optimizing these systems. Therefore, we did not initiate a separate independent
review.

Our evaluation questions were:

   •   What are the scope and objective(s) of EPA’s nationwide optimization project for
       Superfund-financed groundwater pump-and-treat systems?
   •   Based on the optimization project’s planned time line, what progress has been made to
       date?
   •   What are the key findings to date concerning cost, effectiveness, and optimization
       recommendations for the Superfund-financed pump-and-treat systems?
   •   What are EPA’s and participating Region’s and/or State’s plans to apply the findings and
       recommendations of the nationwide optimization project?

Details on what we found are presented in the Findings section.



                                                 2
Background

In 1999, EPA reported that groundwater contamination is present at the majority of Superfund
and Resource Conservation and Recovery Act corrective action sites. Pumping contaminated
groundwater from the subsurface and treating the water to rid it of contamination has been a
generally accepted means of remediation in the Superfund program. In January 2002, EPA
reported that although the number of Records of Decision selecting the pump-and-treat remedy
decreased from 92 percent in 1986 to 30 percent in 1999, pump-and-treat remedies are still the
most common groundwater cleanup remedies used at National Priority List sites. September
2002 data from EPA indicates that pump-and-treat technology has also been used most
frequently to remediate MtBE (methyl tertiary-butyl ether), found in gasoline which is
commonly stored in underground storage tanks.

EPA estimates that over 700 groundwater pump-and-treat systems are operating at National
Priority List sites. While currently 88 are Superfund financed, many of the 700-plus systems are
expected to operate for decades, resulting in substantial costs to Federal or State governments or
responsible private parties. The average annual operating cost for a Superfund-financed pump-
and-treat system was recently determined by EPA contractors to be $570,000.

A Department of Defense (DoD) Inspector General report, “Evaluation of DoD Waste Site
Groundwater Pump-And-Treat Operations” (98-090, March 12, 1998), noted that studies of
pump-and-treat remedies in isolation (not compared to other remedies) report pump-and-treat is
often ineffective in meeting groundwater restoration goals, particularly when nonaqueous phase
liquids (NAPLs), which do not dissolve in water, are present. EPA reported that NAPLs have
been observed or are suspected in the subsurface at approximately 40 percent of the
Superfund-financed sites profiled in the optimization project. Some researchers have concluded
that, with few exceptions, remediation of contaminated groundwater using pump-and-treat “is
impossible and prohibitively expensive.”1 This does not necessarily suggest poor remedy
selection or design decisions. Rather, as EPA has reported, the science of NAPLs has evolved
over time and their potential presence may not have been recognized during remedy selection
and design.

OSWER’s fiscal 2000-2001 Superfund Reform Strategy included a commitment to optimize
Superfund-financed pump-and-treat systems. In an October 2000 memo, the Acting Director of
OSWER’s Office of Emergency Removal and Response announced the optimization project,
whose goals were to “encourage systematic review and modification to existing P&T
[pump-and-treat] systems to enhance overall remedy effectiveness and cost effectiveness,
without compromising protectiveness or other objectives of the Superfund program....” The
method for evaluating pump-and-treat systems in the optimization project was the U.S. Army
Corps of Engineers Remediation System Evaluation (RSE) methodology. This is one standard
method of evaluating remediation systems (in this case, pump-and-treat) to discover operating


        1
           Voudrias, E.A. (2001), Pump-and-Treat Remediation of Groundwater Contaminated by Hazardous
Waste: Can It Really Be Achieved? Global Network for Environmental Science and Technology: the International
Journal, 3 (1), pp. 1-10.

                                                      3
inefficiencies that could increase operational costs and jeopardize the effectiveness and
efficiency of the system. The RSE process is conducted over a relatively short period (less than
one week), and involves reviewers independent of the site operation. The project team
conducting the RSEs for EPA’s pump-and-treat optimization project included EPA contractor
staff, members of the U.S. Army Corps of Engineers, and the EPA Project Officer in the
Technology Innovation Office.



Scope and Methodology

We performed our evaluation from November 2001 through December 2002. To address our
evaluation questions, we interviewed the full range of individuals who were involved with
planning, implementing, or providing administrative support and oversight to the Nationwide
Optimization Project. This included staff in EPA Headquarters, OSWER/Office of Emergency
Removal and Response (specifically the Technology Innovation Office); the U.S. Army Corps of
Engineers; and an EPA contractor. We also reviewed optimization project documents or
deliverables as they were completed and made available to us. These included the following
reports:

   •   Superfund Financed Groundwater Pump and Treat Systems: Summary of Selected Cost
       and Performance Information (EPA 542-R-01-021a), December 2001.

   •   Pilot Project to Optimize Superfund-Financed Pump and Treat Systems: Summary Report
       and Lessons Learned (EPA 542-R-02-008a), November 2002.

   •   All 20 RSE reports produced for the optimization project.

In addition, we interviewed State officials in Massachusetts, New York, Pennsylvania, and South
Carolina, and officials at EPA Regions 1, 2, 3, 4, and 10. We asked the Regions and States to
provide their perspectives on the value and utility of the information produced during the RSE
process, the effectiveness of EPA’s “top-down” approach for optimizing pump-and-treat
remedies, and what it would require to implement the RSE recommendations. We based our
selection of these States and Regions on criteria found in the RSE reports as well as Record of
Decision cleanup goals associated with the 20 sites where RSEs were conducted. Specifically,
we identified those sites where: (1) the goal of the pump-and-treat system in the Record of
Decision indicated containment and groundwater restoration, (2) RSE results indicated that the
current pump-and-treat system would not achieve the Record of Decision objective, and
(3) 5-year reviews indicated that systems’ performance and effectiveness was not sufficient.
Generally required under the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA), five-year reviews provide an opportunity to evaluate whether
implemented cleanup remedies remain protective of human health and the environment. Our
evaluation also included a review of literature concerning aspects of the Superfund program, and
other evaluation procedures we considered necessary for the purpose of expressing an opinion
based on our objectives.


                                                4
We performed this evaluation in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, as they apply to performance audits.

Findings

Superfund reforms were implemented in 1993 to address stakeholder criticism and to make the
Superfund program work faster, fairer, and more efficiently. The reforms consist of various
initiatives and pilot programs intended to effect changes on both a programmatic and site level,
within the CERCLA framework. As part of its fiscal 2000-2001 Superfund Reforms Strategy,
OSWER committed to optimizing the performance of Superfund-financed groundwater
pump-and-treat systems. The Office of Emergency Removal and Response, as the lead office on
the optimization project, formally announced it in October 2000.

We found that, generally, the pump-and-treat optimization project has produced valuable
information and recommendations for improvement regarding the cost and performance of
Superfund-financed pump-and-treat systems. However, we found there was room for
improvement in the tracking of benefits resulting from the project. Details follow.

Phases 1 and 2

Phases 1 and 2 of the three-phase Nationwide Pump and Treat Optimization project have been
successfully implemented and completed.

Phase 1 identified and compiled the cost and performance data for all 88 Superfund-financed
pump-and-treat systems. We found there is value merely in the information that was produced
by the project team.

As part of Phase 2, approximately 30 percent (20) of 67 operational Superfund-financed pump-
and-treat systems across the nation were evaluated to identify possible improvements in remedy
cost and effectiveness. EPA’s Phase 2 results showed that improvements in system
effectiveness, cost reduction, and other technical improvements could be made at 85 percent (17
of 20) of the evaluated systems. To assist EPA and the States in eventually closing out the sites,
the project team also identified recommendations regarding site closeout at 80 percent (16 of 20)
of the evaluated sites where evidence suggested the presence of NAPLs. These
recommendations indicated that 65 percent (13 of 20) of the evaluated sites should consider
alternate technologies to replace pump-and-treat or to supplement it with more aggressive source
removal.

Recommendations to improve pump-and-treat effectiveness generally focused on improvements
in delineating groundwater plumes and improving the collection and analysis of data to evaluate
the effectiveness of systems. For example, at one Superfund site, EPA’s project team noted that
at the time of the site visit, water quality samples from multiple locations in the treatment
process train and from monitoring wells were being collected and analyzed for volatile organic
compounds and inorganics, but the resulting data were not evaluated or reported to the EPA or
the site manager. EPA also reported that some pump-and-treat systems were overdesigned (had
components that were no longer necessary) due to changes that had occurred at the site over

                                                5
time, and some systems needed to replace faulty or inefficient equipment. The project team also
determined that labor costs could be reduced at some sites without sacrificing the effectiveness
of the remedy. Implementation of the recommendations is estimated to result in a 36 percent
reduction in annual operation and maintenance costs, which were reported to be $13.3 million
for the 20 pump-and-treat systems evaluated. However, one-time capital investments to
implement the recommendations could potentially raise operation and maintenance costs for the
evaluated sites by 46 percent.

In addition to the specific recommendations to improve the performance, cost, or effectiveness of
pump-and-treat systems, the EPA project team also made some overall observations on lessons
learned from the RSE process and recommendations to maximize the benefits of the RSE
process. These are detailed in the relevant EPA reports. EPA has taken, and continues to take,
some important action to address the lessons learned and suggestions. Some of the more
significant include:

   •   Developing fact sheets on “Implementation of RSE Recommendations: Technical
       Assistance Resources Available to RPMs [Remedial Program Managers]” and “Elements
       of Effective Management of Operating Pump and Treat Systems.”

   •   Conducting presentations for various Federal and State representatives and Internet
       seminars discussing results and lessons learned from the nationwide optimization study.

   •   Providing contractor support for technical assistance on implementing recommendations.

   •   Sponsoring a conference on “In Situ Treatment of Groundwater Contaminated with
       Non-Aqueous Phase Liquids.”

Stakeholder Reaction Thus Far

Interviews we conducted with representatives of EPA Regions (Division Directors, Branch
Chiefs, Remedial Project Managers) and States (Deputy Division Directors, Project Officers)
that are, or will be, managing some of the evaluated systems generally indicate that the
optimization project was valuable, useful, and identified opportunities for costs savings.
Generally, we received more positive than negative comments on the RSE process and
optimization project. EPA Superfund Regional Management in all four Regions we visited
believed that the RSE process was helpful, indicating that RSEs were a good management tool
and provided a good overview of site conditions and effectiveness of the pump-and-treat remedy.
One Division Director would like to have RSEs performed on all sites, provided that funds were
available. State environmental program representatives indicated that the RSE results confirmed
potential problems that the State had been concerned with, identified problem areas that EPA
needed to address before site turnover to the States, and found the process particularly useful
because the RSE was an independent third party review of the pump-and-treat system. Areas that
EPA representatives expressed some trouble with included concerns that RSE recommendations
would not be implemented in cases where the benefits of system optimization may accrue to
States rather than EPA; difficulty implementing recommendations that were impractical because
of State laws; a burdensome and inadequately organized system for followup; and concerns that
the timing of RSEs may need to be revised to get the most benefits from the evaluation process.

                                               6
Implementation and Tracking/Phase 3

Phase 3 of the project is ongoing and generally involves project tracking, including capturing
progress towards implementing the RSE recommendations.

At the time we completed our fieldwork, approximately 22 percent of the 241 recommended
improvements identified by EPA’s project team and agreed to by the Regions were fully
implemented, about 31 percent were in the process of being implemented, and 47 percent were
deferred for various reasons. Of the 47 percent that were deferred, the two most common
reasons given were that implementation of the recommendation was dependent upon Regions
completing other RSE recommendations, and that the Region could not perform the function in
fiscal 2002 but believed it could accomplish the function in fiscal 2003. For example, at one
Superfund site, EPA recommended additional sampling points to better determine the extent of
the groundwater contamination. However, the Region postponed this recommendation until data
is analyzed for the 5-year review in September 2003. Other reasons for deferral included
funding, awaiting transfer of a site to a potentially responsible party, or the site was transferred
to the State. We were unable to determine the precise impact of the deferred recommendations.

Significant “lessons learned” from the optimization project that were not yet completed at the the
conclusion of our fieldwork, include:

   •   Develop fact sheets entitled “Best Practices for Capture Zone Analysis” and
       “Groundwater Optimization: Benefits and Approaches.”

   •   Delivery of four regional training events on the capture zone analysis fact sheet.

   •   Develop guidance on exit strategies, overdesign, and contracting.

   •   Follow up on sites containing NAPL contamination that are unlikely to reach cleanup
       levels with existing remedial actions, and sites where contractor issues were specifically
       identified.

   •   Conduct an additional four to six pump-and-treat RSEs at Superfund-financed sites.

   •   Summarize implementation efforts and costs and send memo to Regional managers on
       progress.

At the end of our field work, it was not clear that EPA’s project team had a milestone for
completion of Phase 3 of the project, nor that Phase 3 was complete. However, fact sheets EPA
released early in the project indicated that project tracking would be completed by the end of
fiscal 2002. We believe that successful implementation and completion of Phase 3 must be
equally included in the measure of success or impact associated with the optimization project.
Although the EPA project team has identified or completed several important activities
associated with Phase 3, we believe the Phase 3 activities need to be amended to include more
organized focus on actions to accurately track the environmental and cost savings results
achieved from implementing the evaluation recommendations. These activities are likely to
involve setting priorities for which sites or recommendations are most critical to track,

                                                 7
establishing a time line for tracking actions, and establishing credible metrics to measure
environmental and cost benefit outcomes associated with implementing optimization project
recommendations. These actions should also be incorporated in the work plans of future
optimization projects EPA will, or has recently, implemented.

Conclusion

Progress on the Nationwide Superfund-Financed Pump and Treat Optimization Project has been
promising to date, and the project has produced valuable information and recommendations.
This progress needs to be sustained and measured in a way that permits a better understanding of
the environmental and fiscal advantages of investing in optimization studies. Without this, there
is risk that EPA will lose an opportunity to acquire information on how effective the
optimization project is for producing environmental or cost savings results. In the long term, it
will be difficult to determine the environmental and cost benefits of optimization projects such as
this if accurate and meaningful information on the results they produce has not been collected or
analyzed.

Additional Issue

Although we did not have an opportunity to review this issue in detail, we also observed that
there is a potential duplication of decisionmaking information obtained from RSEs and 5-year
reviews. Although there are statutory and technical differences among these two evaluation
methods, they both render an opinion on the effectiveness of a cleanup remedy. This may create
perceptions of duplication of effort or, upon further examination, suggest that one of these
methods may generate more reliable conclusions concerning remedy protectiveness.

                                              ***

If you have any questions regarding this report, please call me at (202) 566-0829.




                                                8
                                                                 Appendix A


Distribution
Assistant Administrator for Solid Waste and Emergency Response
Director, Office of Emergency Removal and Response
OSWER Audit Liaison
Inspector General (2410)




                                            9
